<html>
<title> - [H.A.S.C. No. 114-119] BUILDING THE FLEET WE NEED: A LOOK AT NAVY FORCE STRUCTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-119]

       BUILDING THE FLEET WE NEED: A LOOK AT NAVY FORCE STRUCTURE

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 13, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-079                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Lehman, Hon. John F., Former Secretary of the Navy...............     3
Natter, ADM Robert J., USN (Ret.), Former Commander, U.S. Fleet 
  Forces Command.................................................     5

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    29
    Lehman, Hon. John F..........................................    31
    Natter, ADM Robert J.........................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
    
    
    
       BUILDING THE FLEET WE NEED: A LOOK AT NAVY FORCE STRUCTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, April 13, 2016.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Well, I want to welcome all of our members to 
our hearing today. I am particularly pleased to have some of 
our Nation's foremost naval experts providing testimony before 
our subcommittee.
    We have the Honorable John F. Lehman, former Secretary of 
the Navy, and Admiral Robert J. Natter, U.S. Navy, retired, 
former Commander, Fleet Forces Command. Gentlemen, thank you so 
much for all that you have done for our country and we are 
delighted to have you with us today.
    When John Lehman stepped down as Secretary of the Navy in 
1987, we had 594 ships. When Admiral Natter retired from the 
Navy in 2003, we had 297 ships. Today, we have 272 ships. The 
size of our fleet is only one metric for Navy strength, but it 
is an important one. And while I firmly believe that the United 
States Navy remains the most powerful and capable maritime 
force in the world, I am concerned about the future and the 
trend lines that we see in those three points.
    We have heard from the Chief of Naval Operations [CNO] 
Admiral Richardson that we are returning to an era of great 
power competition in which our maritime superiority will be 
contested. We have heard the gaps in our aircraft carrier 
presence will continue to occur in the Middle East and the 
Pacific. We have heard from the Marine Corps that shortfalls in 
amphibious ships are driving them to consider deploying aboard 
foreign ships.
    A few weeks ago, Admiral Harris, our commander in the 
Pacific, testified to Congress that the Navy can currently only 
fulfill 62 percent of his demand for submarines. We all thought 
that sounded pretty dire, but just last week I was informed by 
the Navy that across the board, the Navy will only be able to 
meet 42 percent of anticipated demand for forces in fiscal year 
2017. So it turns out that Admiral Harris' situation may 
actually be above average, an alarming realization indeed.
    The conclusion we should all be drawing from this data is 
that we need more ships, and more aircraft, and more investment 
in other elements and enablers of naval power. The 
administration points to a ship construction program that will 
meet the 380-ship Navy in the next few years. However, if one 
looks under the hood of this car, one sees some disturbing 
details. The administration continues to count ships that they 
intend to shrink wrap and tie to the pier. Once again, they are 
proposing to lay up half our cruisers and truncate the 
procurement of small surface combatants.
    Now, in fiscal year 2017, they are asking for permission to 
deactivate an entire carrier air wing. These trend lines are, 
indeed, concerning and point to a clear need to provide 
additional investment in our Navy and in the other elements of 
our national defense. They are also evidence, I believe, of 
malaise and a lack of vision in thinking about American 
seapower.
    While I believe that our uniformed leaders are fully 
capable of providing this vision and leadership, I believe the 
administration, and the next, must place a higher priority on 
national security and the strength of our Navy. Our witnesses 
today have fought these battles before and are a clear source 
of inspiration as we navigate these troubled waters and seek to 
rebuild our maritime strength. We are indebted to them for 
their service, and today we once again call on their wisdom and 
foresight. I look forward to hearing their thoughts.
    But now I turn to my good friend and colleague, the ranking 
member of the subcommittee, Congressman Joe Courtney of 
Connecticut, for any comments he might have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Great, thank you, Mr. Chairman, for holding 
today's hearing to hear the views of our two distinguished 
witnesses on the Navy's force structure. As the Chief of Naval 
Operations Admiral John Richardson shared with our committee 
last month, the Navy is undergoing a review of its Force 
Structure Assessment. Given the changing dynamics around the 
world, the growing demand for our ships, and the increasing 
strain on our naval fleet, I welcome this reassessment of our 
force structure requirements, which is the subject of today's 
hearing.
    Our current fleet requirements stand at 308 ships which, 
thanks to the 84 ships under contract over the last several 
years, we expect to reach within the next 5 years. That is good 
news, but it is just a start because even under the Navy's 
plan, we will not sustain the levels needed to fully support 
the various components of that fleet.
    While the 30-year shipbuilding plan for 2017 has still not 
been submitted to Congress, we expect it to reflect what we saw 
in the 2016 plan, that even when we meet the 308-ship goal, key 
shortfalls will remain.
    For example, we will face shortages in small and large 
surface combatants as well as attack submarines over the next 
three decades. Additional shortfalls remain in the fighter 
aircraft and other capabilities that will be key to combating 
the challenges of the future.
    Notably, one area that the CNO singled out for particular 
review in the Force Structure Assessment was our attack 
submarine force. The current requirement of 48 was set nearly a 
decade ago before undersea resurgence that we see now by China 
and Russia.
    Retired Admiral Jim Stavridis told our panel that Russian 
submarine activity is probably 70 to 80 percent of what we saw 
during Cold War times. Admiral Harris told us of his concerns 
that the U.S. submarine force will dip to 41 at a time when 
China is increasing their fleet size and advancing their 
undersea capabilities. European Commander General Breedlove 
told us that the submarine shortfall leaves us playing zone 
defense in the North Atlantic. And above all, our combatant 
commanders have been clear to us that the current fleet of 54 
attack submarines, let alone the future force of 41 or even 48, 
cannot adequately meet the demand of our undersea capabilities.
    That is the kind of area that begs for reassessment and I 
look forward to the outcome of their review, not just for 
submarines, but across all aspects of our naval fleet. However, 
if we are ever going to reach the required fleet size, Congress 
and the Nation must grapple with the dual challenges of the 
Budget Control Act [BCA] and the critical need to recapitalize 
our sea-based strategic deterrent submarine fleet without 
depleting resources for other vital shipbuilding programs.
    If not addressed, both of these issues will significantly 
impact our ability to build and sustain the fleet we need. I 
hope our witnesses will share their views on both subjects with 
us today. The shortfalls we will face are largely the result of 
decisions made in previous decades which we cannot undo in a 
single year. What we can do, though, is continue to work in a 
bipartisan way to address our current and future shipbuilding 
needs going forward.
    I am proud that this panel has a record of doing so and I 
look forward to sustaining that record. The witnesses' input 
today is vital as we prepare to mark up the 2017 defense 
authorization bill and continue to build the fleet we need for 
the future. I yield back, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Courtney. And without objection, 
Secretary Lehman and Admiral Natter's written testimony will be 
made a part of the record. No objection, so it will be so 
entered.
    And with that, Mr. Secretary, we are delighted to have you 
here and we look forward to any opening remarks that you might 
have for us.
    Secretary, you might want to push that.

 STATEMENT OF HON. JOHN F. LEHMAN, FORMER SECRETARY OF THE NAVY

    Mr. Lehman. Sorry. It has been a long time since I have 
been before this distinguished committee and it really is 
distinguished.
    I spent hundreds of hours before this committee and your 
predecessors. Charlie Bennett, I think I spent more time with 
Charlie when I was Secretary than I did with anybody else but 
my wife. And the history that this subcommittee, and its 
predecessor committee, has had in building and leading, helping 
to lead executive branches to form the kind of Navy that has 
prevented wars, and prevented us losing wars, stands out among 
all committees, in my judgment, in the history of the Congress. 
And you have been able to carry that tradition and are 
continuing to lead and show a vision of where a bipartisan 
naval strategy can be achieved. So thank you for that.
    I am delighted to be back. It has been a long time. But as 
you know, just so everybody knows my prejudices, the naval 
tradition in my family is old. George Lehman was in the 
Revolutionary Navy. My great grandfather was in the Union Navy. 
My father was in World War II. I was a Reserve naval aviator 
for 25 years, and ended up touching virtually every trouble 
spot during that period. My son was a naval aviator with three 
tours on the Teddy Roosevelt in all of the combat areas. So I 
come with prejudices.
    I was Secretary of the Navy for 6 years. The 
accomplishments of the Navy in those years, I think, was made 
possible because, particularly starting in 1977, 1978, 1979, 
your subcommittee and the Seapower Subcommittee on the Senate 
side, laid the groundwork, the intellectual groundwork at a 
time when the Nation was not fully conscious of what the 
dangers really were; that we were, in fact, losing the Cold 
War. And as a result of the groundwork and the foundation of 
strategic thinking that was laid by your subcommittee in those 
years leading up to 1981, the possibility of a bipartisan 
majority, starting in 1981, led on the Senate side by Scoop 
Jackson and others, and on the House side by Charlie Bennett, 
and with President Reagan adopting basically what your 
philosophy had laid down, intellectual foundations, we were 
able to reverse what was a very unpleasant result of the 
postwar, the post-Vietnam war letdown and disarmament that had 
undertaken.
    I think that history will show that it was those years that 
really won the war, the Cold War at sea. It was the 
demonstration that we could build a Navy and maintain a Navy 
without breaking the bank and we could defeat the Soviet forces 
at sea. And I think that was a major contribution to the 
collapse of the Soviet Union.
    Now, as I have said before, quoting my boss, my old boss, 
Henry Kissinger, ``History doesn't repeat itself but it 
rhymes.'' And we are rhyming again now. Not only with the post-
Vietnam period of disarmament, but we are rhyming more 
disturbingly with the 1930s and the reverse of what Teddy 
Roosevelt famously argued for, to speak softly but carry a big 
stick.
    We are currently speaking loudly about Chinese incursions 
in the South China Sea, the Russian Navy incursions, and yet we 
are carrying an ever-smaller stick. And while the intentions 
and naval policy has always been bipartisan, but sometimes the 
reality of what is really happening compared to what the hope 
and intention of Congress is, are not the same.
    The fact is, we have allowed inattention over 20 years to 
the structure, the practices, the bureaucracy of the Department 
of Defense that it has become so dysfunctional that we 
currently have, according to the GAO [Government Accountability 
Office], $450 billion of cost overruns in current programs. 
Those are going to have to be paid. These are contractual 
obligations. They are not funded. That is about 6 years of the 
procurement budgets for ACAT [Acquisition Category] I and II 
programs. And every year we are averaging about 20 percent cost 
overruns regardless of Nunn-McCurdy breaches, and so forth. 
That is what the real numbers are.
    So we are disarming rapidly. We are spending today roughly 
the same in constant dollars as we did at the height of the 
Reagan administration. And we have an Army not of 20 divisions, 
as Reagan built, but 8. We have an Air Force of not 35 tactical 
fighter wings, as President Reagan built, but 15. We don't have 
220 strategic bombers as Reagan had, we have 72. We don't have 
a 594-ship Navy, as Reagan built with that same amount of 
money, but we have 272. This is unilateral disarmament.
    And I am just so really optimistic and delighted about what 
you did in this committee and working with the Senate to start 
really fundamental reform; not the kind of reform that 
everybody talks about every year, we are going to reform this 
and reform that. But what you all did in the NDAA [National 
Defense Authorization Act] that was signed earlier this year 
and what you are on the route of doing for the NDAA for this 
year, is truly historic and starts the process of dismantling 
this vast bureaucratic, amorphous entity that has strangled 
innovation, strangled cost control, strangled common sense.
    We have got to do that if we are going to get back to the 
kind of effective procurement to rebuild a Navy that is 
sufficient in size and quality to deter as we deterred--the 
600-ship Navy as an objective was not to win a war. It was to 
deter a war and it succeeded. It ended the Cold War without 
really firing a shot. And unfortunately, today, we are doing 
the opposite. We are getting weaker. The threat is getting more 
sophisticated and diverse in more places around the world than 
we had in the nice bipolar Cold War and so we have really got 
to reverse before it leads to unintended combat which we could 
well lose.
    So I look forward to your questions and thank you for 
inviting me. It is a pleasure to be here.
    [The prepared statement of Mr. Lehman can be found in the 
Appendix on page 31.]
    Mr. Forbes. Mr. Secretary, thank you. Admiral Natter.

     STATEMENT OF ADM ROBERT J. NATTER, USN (RET.), FORMER 
              COMMANDER, U.S. FLEET FORCES COMMAND

    Admiral Natter. Thank you, Mr. Chairman. Chairman Forbes, 
Ranking Member Courtney, ladies and gentlemen, I am honored to 
be here as an independent witness before your subcommittee, 
sitting next to Secretary Lehman, someone who the Navy 
certainly respects and admires for what he and the 
administration of President Reagan were able to accomplish.
    I can say that my family doesn't have near the historical 
platitudes that Secretary Lehman talked about. Although I must 
admit, I have six brothers, six of whom were naval officers and 
one Air Force officer and we still love him.
    And I have three daughters. All three served in the Navy. 
Two still are naval officers, and two sons-in-law are in the 
Navy. So I have a vested interest like so many of us in what 
happens to our military today, and especially what happens to 
our young men and women serving if we call on them to go to 
combat.
    I am, quite honestly, worried today about the troubling 
reduction in the size of our Navy and the shrinking of our 
technology advantage. There is a dangerous myth out there 
espoused by some that our shrinking numbers, happily, can be 
offset by our technology; that our ships today are so much 
better than our ships of the past.
    The uncomfortable little truth, though, is that although 
our ships are indeed better than they were in the past, our 
potential adversaries are not producing buggy whips and ships 
that sail either. And in fact, some, not most, but some of 
their technologies are, in fact, better than ours today. The 
truth is, numbers do count, and the truth is, we need more 
ships and aircraft in our Navy today.
    Let me expand on that a bit. With respect to the Navy's 
force structure, the current number of that force structure is 
308. But as a practical matter, that number is not achievable 
without top-line relief of the Navy's SCN [Shipbuilding and 
Conversion, Navy] account to accommodate the Ohio Replacement 
Program. Everyone knows that. There are solutions out there. 
There are critics of those solutions, for very valid, and very 
longstanding criticisms of those approaches. But the reality is 
that without an alternative, without a top-line increase or 
some other account to accommodate this national strategic 
requirement, the Navy's shipbuilding account is not worth the 
paper it is written on.
    And given today's realities, what are those? A fast-growing 
Chinese military force structure and its actions in Asia waters 
that essentially are grabbing 600,000 square miles of ocean 
resources; with North Korea developing nuclear weapons and the 
means to deliver them--no one disagrees with that. We are 
watching it happen--with Russian naval deployments returning to 
Cold War levels--that is not a secret, everyone is aware of 
that--and with ongoing terrorism deployments on the part of our 
Navy.
    My view is, given those realities that I just laid out, our 
minimum number of Navy combatant force structure ships has to 
be, today, given that threat, about 350 ships. I mean, all you 
have to do is look at the number of ships we had when I was 
commander of the 7th Fleet in Asia and the opposition that we 
faced in those days.
    The problems today are much more serious and the numbers of 
those potential adversaries have--the numbers they have are 
much more serious than when I was there, and yet, the numbers 
of our ships and aircraft are smaller. We have got to have at 
least a 350-ship Navy to be able to confront the kinds of 
challenges that we face today, and those technologies that 
those challenges have, and the appropriate number of balanced 
aircraft to operate with them.
    With that, I am going to hush, and then open it up to your 
questions. Thank you.
    [The prepared statement of Admiral Natter can be found in 
the Appendix on page 37.]
    Mr. Forbes. Admiral, thank you. I am going to defer my 
questions until the end to make sure all of our members can get 
theirs in. So with that, we recognize Mr. Courtney for any 
questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman. Again, thank you for 
your great testimony this morning, to both witnesses.
    Secretary Lehman, again, you described the process that 
occurred in the late 1970s and early 1980s, in terms of, you 
know, trying to determine what a proper force structure number 
should be.
    And could you elaborate a little bit more in terms of just, 
you know, where did that begin? Did it begin with just sort of 
an assessment of just, you know, what are the threats over, you 
know, out there, and then sort of build the number from that; 
or you know, the industrial base, or you know, what was sort of 
the origination of that process?
    Mr. Lehman. That is an excellent question because, you 
know, the history you don't know, you are bound to repeat. So 
one of the reasons that the 600-ship Navy, which was truly a 
bipartisan naval rebuilding program, never really changed from 
the first time it was proposed in detail with budgets and was 
in the supplemental in 1980. Never changed until the end of the 
Bush administration and the fall of the Soviet Union, was 
because it wasn't just pulled out of thin air. It wasn't just 
political theater. It was derived from a careful analysis by 
multiple sources including CNA [Center for Naval Analyses], the 
Sea Plan 2000 study, the Naval War College, about where our 
true vital interests were in the world and what the threat was 
in each of those areas, mainly from the Soviet Union and its 
allies.
    And then what force structure was needed to effectively 
deny the Soviet Union any thoughts that they could prevail and 
close off chokepoints or interdict the sea lines of 
communication between NATO [North Atlantic Treaty Organization] 
and North America. Every single one of these vital areas, vital 
to the security of the United States, was carefully analyzed. 
And from that, the force structure needed to protect those 
vital areas was derived.
    And that is basically how we came up with 600 ships and 15 
carrier battle groups and 100 nuclear attack submarines, quite 
apart from the strategic equation. There was a logic to it. 
There was a discipline and a rigor to it. And it held up 
because it was not esoteric. It was not based on complex 
algorithms of force exchanges and so forth.
    And that is what we need and lack today, I think--a 
bipartisan acceptance of what our national strategy really is. 
And with that national strategy, we can derive the force 
structure, the minimum that we have to have, accepting the fact 
that we, as we did then, had fully integrated B-52s, and Air 
Force assets into the naval strategy, the capabilities and 
force structures of our allies, and we do that today.
    So I think using that same discipline, that same rigor, and 
that same logic, that the minimum figure is the one that I 
would fully endorse with Admiral Natter, which is roughly 350 
ships. The number of aircraft carriers--don't forget aircraft 
carriers are the one absolute that any naval formation or any 
naval activity has to have. They provide the disk. It is the 
carrier that provides the disk 600 miles across of total air 
superiority that protects every other ship whether it is an 
Army transport, or a fast deployment ship, or reefers, or the 
small boys in a battle group.
    There, my number would be 15. And I think that can be 
achieved if the reforms that this committee has pushed and 
proposed on fundamentally streamlining and reducing that vast, 
choking bureaucracy in the Department of Defense to get back to 
fixed pricing and get back to the disciplines of no change 
orders once production is approved.
    We are not going to get there right away. But in the 
meantime, we have to show intent because in 1981 we had fewer 
than 500 ships. We had 13 aircraft carriers and we had terrible 
morale. You will recall, those of you from the Tidewater area, 
that in 1979 there were four ships that could not deploy 
because they didn't have the sailors. I mean, retention was 
terrible. We are heading right down that road again. We are 
succumbing to that same siren song that we heard in the 1930s 
and we heard in the 1970s, we will do more with less.
    But yet, we can't do more with less. We have to do less 
with less. But the temptation to do more is there and so we 
found in the 1970s we ended up with 11-month deployments, some 
of them as long as 12-month deployments, when history has 
proven that if you keep sailors at sea away from their families 
for more than 6 months over time, they will do it in a surge or 
a war, but otherwise, you are going to destroy the 
infrastructure of your Navy in skilled people, in morale, in 
readiness, the up rates of aircraft on carriers, the ship 
systems, and so forth.
    So we are headed down that road. We are doing it. We are, 
regardless of what people say, the deployments, as you all 
know, are now, many of them, well beyond 6 months. And we are 
starting to see the same impact on retention of our skilled 
technicians and leaders in both the commissioned and 
noncommissioned ranks. So we have got to turn it around.
    Mr. Courtney. And so Admiral, right around the time you 
left the Navy was about the last time we did do a Force 
Structure Assessment, which as the chairman says, is 308 ships. 
Could you talk a little bit about, you know, what the world 
looked like then as you were, again, finishing a distinguished 
career and what it looks like today and why that assessment, 
reassessment is needed?
    Admiral Natter. Well, I retired about 10 years ago. We had 
just done a very successful set of operations over in the 
Middle East going after Al Qaeda. The Russians really were no 
longer confrontational. It was not the Russia of the Cold War 
days. They were rebuilding, trying to internally. China was 
just coming out of its cocoon. When I was commander of the 7th 
Fleet about 5 years before that, I made port visits to China. I 
was the first Admiral to go into Hong Kong after reversion. The 
Chinese were much more cooperative than they are today. They 
were not grabbing islands and claiming territorial seas that 
truly don't exist. We have got a different environment today. 
We have much graver threats.
    The idea that there is going to be a confrontation in the 
Spratlys, or more seriously in my view, the Senkakus with 
Japan, is going to directly affect every American. And if we 
were to go to combat with the forces we have today, we would 
not be as effective and I would question our ability to succeed 
against a China that was serious about going on the offensive 
against us in that theater.
    I just can't state enough that we do not have sufficient 
forces out there to take them on, or for that matter, North 
Korea, who as we all know, is developing a nuclear weapon and 
the means to deliver it.
    The idea that we are just going to develop a defensive 
capability against nuclear weapons that are lobbed against our 
bases in Japan, against our ground forces in South Korea, is 
insanity. Without a strong military, we may as well just 
withdraw and admit that we are going to be isolationists 
because that is the direction we are headed. I am very 
concerned about it.
    As I mentioned, I have daughters and sons-in-law who are on 
active duty who have been in harm's way, and I don't want to 
lose them without a committed nation behind them.
    Mr. Forbes. The distinguished gentleman from Alabama, Mr. 
Byrne, is recognized for 5 minutes.
    Mr. Byrne. Thank you. Thank you, gentlemen, and both of you 
have good, strong long-time connections to the State of 
Alabama. Secretary Lehman is from my hometown in Mobile, and 
Admiral, you are a son of the State of Alabama. We appreciate 
both of you and thank you for your service.
    Two weeks ago I was in China at a conference, and one of 
the days in conference we spent talking about the military 
situation there. We had a representative from the United States 
side, and a representative from the Chinese side. And the 
Chinese representative was remarkably candid and very 
worrisome. I would like to read a portion, just a few sentences 
of what he had to say, and ask you to react to it. To some 
extent, I think, Admiral, you have already addressed it, but I 
would like for you to be a little more specific about what we 
would do in response to this. But, listen to what he said. You 
know, this is the Chinese speaking:
    ``As is well known, security frictions between China and 
the U.S. for a long time have occurred mainly within the first 
island chain. Chinese efforts to secure reunification across 
the Taiwanese Strait and to safeguard its territory, 
sovereignty, and maritime rights and interests in the East 
China Sea and the South China Sea, face incessant U.S. 
interference and intervention.'' And here is the key sentence. 
``The development of a new balance of power will be marked by 
China's enhanced capacity to safeguard its territory and 
sovereignty and maritime rights and interests and a weakened 
U.S. capability to intervene.'' That is the Chinese perspective 
on us.
    So if we are going to reverse that, specifically, what do 
we need to do?
    Admiral Natter. Well, those are very strong words. Because 
they are said, does not make them truth. There are legitimate 
disagreements as to who those atolls and reefs really belong 
to, if anyone, because they are atolls and reefs. And 
international law and maritime practice has a definition about 
those.
    The idea that the Chinese are claiming an additional 
645,000 square miles of ocean resources, fisheries, mineral 
rights on the sea bed, and potentially waters to restrict 
maritime commerce and the passage of naval ships out of the 
Straits of Malacca, up to Japan, up to our Southeast Asian 
friends, is absolute insanity. Saying it does not make it true, 
any more than Putin claiming that Ukraine is part of Russia 
makes it true. The reality is, the longer we allow this to 
happen, the more difficult it is going to become to reverse it 
or to stop it.
    The fact that they are putting very capable weapon systems 
on these sand bars and we are watching it happen, in my view, 
is a mistake. Having said that, I would be the first to say if, 
in fact, we are going to contest it, if we are going to 
challenge it with our neighbors in Southeast Asia and in East 
Asia, we need to do it with more capable forces than the United 
States has deployed there today.
    Mr. Byrne. Mr. Secretary.
    Mr. Lehman. Yes, I would echo that. I have made two 
official visits, not official as far as I was concerned, but as 
far as the Chinese were concerned, since I left the government. 
Both times at the invitation of very senior people in the 
Defense Ministry, Liu Huaqing who was the head of the Navy and 
so forth. I find that statement totally consistent with the 
stated intentions in both of those visits.
    My first visit, which was around 1992, they were more in 
sorrow than in anger. ``Why are you disarming? You are 
abandoning. You are creating a vacuum here in the Western 
Pacific. And you are going to create all sorts of instability 
because your Navy is not here anymore. We used to--every time 
we looked out the window in a Hong Kong hotel, we saw a 
carrier, and its escorts there.'' And this provided a stability 
that relieved us of the worry that control of the strategic 
straits which are obsessive with the Chinese, the Straits of 
Sunda, and Malacca. They are not going to let that happen. And 
they told us that. And they said, well, we are going to bring--
we are going to build aircraft carriers because we don't have 
base rights in those areas. But we are going to not allow the 
vacuum that you are creating to persist.
    And so I find the Chinese, other than some of their more 
bellicose junior military officers, junior, you know, one- and 
two-stars which seem to have a franchise of making outrageous 
statements, but I find the official statements of their 
military very consistent and not necessarily pointed hostilely 
at the U.S. I don't believe that they intend to invade the U.S. 
or seize the Hawaiian Islands, but I do believe they are, they 
view us now, but you know, the Taiwan problem is a separate set 
of issues which we could spend all day talking about.
    But the fact is that they really are dependent on virtually 
all of their oil to be imported and imported through straits 
that are potentially not secure. And so they are building, they 
told us, they are building a 600-ship Navy, and if you try to 
interfere, you would do so at your peril. And that at least we 
can understand what their intentions are, which they do not 
have the equivalent confidence--they don't know what our 
strategy is. And I think one reason is because we have no 
strategy.
    Mr. Byrne. My time is up. I really appreciate your 
comments. Thank you.
    Mr. Forbes. The gentleman from Rhode Island, Mr. Langevin, 
is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. Secretary Lehman and 
Admiral Natter, thank you both for your service to our country 
and for your testimony here today.
    For both of you, I don't disagree with anything you have 
said in terms of strength, in terms of where we were, and where 
we are. The challenge, of course, that we have and the 
circumstances were different back when you were there and where 
we are now, is the significant national debt that--the annual 
budget deficits and a crushing national debt that we have to 
contend with, which in itself, is a threat to U.S. national 
security--both short-term rate and long term.
    So given those circumstances, you know, what is your 
guidance and advice to how we now balance those realities with 
the priorities that we have in being able to defend the country 
and have the size force that we actually need given the, you 
know, the budget realities that we are in?
    Admiral Natter. Well, I am not here to testify as the 
former Office of Management and Budget. Having said that, I 
fully agree, that is a huge threat to the security of this 
Nation. And there has to be a handle on our budget deficit. I 
think there is bipartisan concern, appropriately, for that. And 
I think there is recognition in a bipartisan way for the 
problems of the deficit.
    Having said that, the security of this Nation, I think, is 
first and foremost. I think George Washington would have 
believed that and I think he lived that reality. So I think the 
idea of a 350-ship Navy and a balanced military is a priority 
and that, I think, that it is affordable. I think the Nation is 
going to have to get a handle on how it is paid for and how 
other costs impacts, of the national budget, and the deficit, 
have to be gotten under control. But I am not here to testify 
about that, sir.
    Mr. Lehman. Congressman, I think that, as I mentioned 
earlier, Teddy Roosevelt's famous dictum to speak softly but 
carry a big stick is very important today because we have 
allowed our defenses, for whatever the sound reasons, and I 
don't disagree with anything you said on the budgetary issues 
that we face.
    Nevertheless, we have, in the hopes that after the fall of 
the Soviet Union and the end of the Cold War, that we would 
have a relatively peaceful era ahead that did not require the 
kinds of sacrifices that we had to do in the Cold War. That has 
not proved to be the case. Our hopes have proved false. And we 
now have nuclear hostile powers even, like North Korea and 
others emerging. We have got the unique problems of Islamist 
terrorism, and we have allowed our deterrence to really erode. 
I mean, seriously erode. And by deterrence, that means are you 
persuading the potential enemies you have, the potential bad 
actors that they would suffer more than they could possibly 
gain if they took actions against American interests?
    Our deterrence is failing. It is failing to deter the 
Chinese from building its bases in the South China Sea. And it 
is failing in deterring the Russians from reestablishing a 
hegemony that they feel they have lost in their near abroad. 
And it is failing to deter a lot of other potential actors down 
the road.
    So what do we do about this? Well, I totally agree with the 
Admiral. We can afford it. We are only spending 3 percent of 
the GDP [gross domestic product] on defense today. In the 
Kennedy and Eisenhower years it was 8 to 9 percent. In 
President Reagan's years it was about 3.5 to 3.75 percent, so 
you are not talking of a vast change to reestablish deterrence. 
But it is going to take some time.
    And the dangerous thing about doing what we are doing as we 
did in the 1930s, and that is speak loudly and make bold 
declarations about getting the Chinese out of the South China 
Sea, as we continue to erode our naval and other services' 
capabilities is the worst of all possible dangerous situations 
because that leads--historically, has led to miscalculations. 
You know, in the 1930s, we spoke boldly and we imposed 
embargoes, a steel embargo, the scrap embargo, the oil 
embargoes on Japan, as we disarmed, as we adhered to the 
Washington Naval [Treaty] agreements and built no capital ships 
until this subcommittee, which was then a full committee, 
passed the 1936 initiative to start building capital ships. Up 
to that time, we had adhered to the Washington Naval 
agreements, and the Japanese did not. They withdrew from the 
Washington Treaties, and so they grew and we shrank. And I 
think that was a major cause of World War II in the Pacific.
    So we have got to maintain deterrence. We don't have a 
choice. And people have to start articulating this because the 
American people will support it, if their leaders on both sides 
of the aisle, and I might just as an aside to perhaps upset 
some of my revered Republican colleagues. I know the chairman 
knows his history better than I do, but the fact is, there are 
only three Presidents in the history of the United States that 
never built a single capital ship for the U.S. Navy and those 
were all Republicans, ending up with Hoover. And that is a 
history we don't want to repeat for sure.
    So I just, I think we, my last point would be, let's be 
careful. As Reagan proved, you don't have to have achieved a 
600-ship Navy to have 90 percent of the deterrence. You have to 
make it clear that you are heading there. You are rebuilding. 
There is strong bipartisan support to maintain deterrence. Once 
you have achieved that, because it is a game of perceptions, 
but perceptions based on people who are smart and they read our 
mail. And they know what the reality is of our capabilities and 
our weaknesses. And so whereas if we had the full deterrent, we 
might take actions, not necessarily violent actions right away, 
but we might begin to put the pressure on the Chinese and force 
them out of those militarized islands. But today, we do risk a 
conflict by miscalculation. And that far away with as small of 
a force as we have today, it might not end well for us.
    Mr. Langevin. All right. I appreciate both of your 
insights, your testimony here today. I know my time has 
expired, but I take your words to heart and I thank you for 
what you have imparted to the committee today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The chairman of the Readiness Committee, Mr. 
Wittman from Virginia.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us. Thanks for your service.
    I wanted to talk about two issues I believe we see of the 
Navy force structure. One is amphibious lift. I think we are 
doing more to address that this year. I want to thank the 
chairman for all of his efforts and a continuing effort to 
address what I believe is a shortcoming in amphibious lift.
    But I do want to get your perspective on where we are with 
our submarine force. A couple of different tracks, you see 
China continuing to grow their fleet moving eastward through 
the South China Sea into the Pacific, more presence there. 
Secondly, with the Russians, the fifth-generation submarine, 
the Yasen-class, the Severodvinsk very, very capable attack 
submarine. We see those forces going in that direction. We see 
our forces going in the opposite direction. The 30-year 
shipbuilding plan shows us going down to a 41-boat force in our 
attack submarines. We see, too, a gap between Ohio-class 
retirements, Ohio-class replacement availability. We see back 
and forth about a national sea-based deterrence fund to make 
sure that we can fund Ohio-class replacement.
    Give me your perspective on what we need to do overall with 
our submarine force, which I believe is truly going to be the 
most tactically and strategically important element of our 
Navy, and not to discount the others, but to have that as part 
of that, part of the nuclear triad, but also the ability to 
keep up with pretty advanced submarines with the Russians and 
the numbers of Chinese submarines that we will see out there.
    Give me your perspective on what we need to do both in our 
attack class, in our Ohio class, to make sure that we counter 
what we see going on with the other, we will call them, near 
peers?
    Mr. Lehman. Well, I strongly support the idea of a 
strategic funding approach to rebuilding our strategic 
deterrence, because while this is one of the proudest of Navy 
roles and missions, nevertheless, it is only very indirectly 
related to maintaining command of the seas. And if the Navy is 
forced to fund the entire replacement of the Ohio class, there 
will, under almost any feasible funding scenario, not be enough 
money to even maintain the fleet we have.
    So as an approach, I think that is the right approach. But 
our submarine force, just to go back to command of the seas, to 
protect our vital interests and restore deterrence, is the idea 
that we are going to end up with 41 or even 48 nuclear attack 
subs is insufficient, because the biggest vulnerability we have 
today and in my judgment it is severe, is in antisubmarine 
warfare. We have allowed a lot of our antisubmarine systems, 
not just the ones on ships and submarines, but overall, to 
deteriorate significantly. And we have got to rebuild that. And 
we have, to me, it is unbelievable how a succession of CNOs let 
this happen.
    But we have no frigates in the fleet. This is unbelievable. 
And the idea--I am a strong supporter of the LCS [Littoral 
Combat Ship] and have been from the beginning. I think both of 
the versions of it are good ships for certain roles, but they 
will never be frigates. I don't care how much--how big a plug 
you put in and how much fuel you stuff in, they will never be 
frigates. They were never designed to be frigates.
    Frigates are one of the most essential parts of protecting 
a naval force at sea, a Marine amphibious group, an Army 
resupply flotilla, or a carrier battle group, you have got the 
threats. The submarine threat is so much greater today, not 
only the Russian and Chinese, the Russian subs are the equal or 
better of our best submarines from the Cold War. But you have 
got over 100 very, very quiet diesel electrics or closed-
propulsion circuit modern submarines that are really quiet. And 
that is a huge threat because we have really, because of higher 
priorities, we have let that dimension of our protection of 
surface ships really deteriorate.
    So you know, this always gives, always gave all of my nuke 
friends heart attacks when I would suggest it. And I am not 
suggesting that we don't build a nuclear attack submarine fleet 
up above 60, at least, but I believe we need a high-low mix. I 
think the modern, particularly German technology in closed-
propulsion conventional submarines which cost a quarter or less 
than a nuclear submarine, a high-low mix is probably what we 
ought to have in the future. And I guess I am not going to be 
invited to the Army-Navy game this year, but that is what I 
think.
    Admiral Natter. You can take my ticket.
    Mr. Forbes. The gentleman's time has expired. Ms. Gabbard 
from Hawaii is recognized for 5 minutes.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, gentlemen. 
A follow-up to Mr. Wittman's question, that was kind of what I 
wanted to talk about as you spoke broadly about the nuclear 
threat coming from North Korea to places like Japan and South 
Korea. Representing Hawaii, this is something that as North 
Korea beats its drums and makes its threats, Hawaii falls 
within range of their ICBM [intercontinental ballistic missile] 
capabilities and now the miniaturized nuclear capabilities that 
they are talking about.
    And so this question of our submarines, the projected 
reduction and the need for us to be able to maintain that is 
something that is critical. But really, also, the entire 
ballistic missile defense capability that we are looking at is 
of paramount importance.
    I am wondering if you could talk a little bit more about 
that ballistic missile defense and where you see that falls 
into this need for what you talk about a bipartisan strategy, a 
national security strategy.
    Admiral Natter. Well, with respect to ballistic missile 
defense, as you well know, we have a sea capability as well as 
a land-based capability. But getting back to our own submarine 
question, the only way you are going to really protect yourself 
and defeat that threat is to go on the offensive and knock out 
their sites before they launch, or after they start launching. 
Because if you remain on the defensive, you will never, ever be 
able to gain 100 percent reliability in knocking everything 
down. That is the beauty of a submarine. It is a very offensive 
weapon system.
    Our purpose in being as a Navy is to destroy the 
opposition. And if you can't go on the offensive, remain on the 
offensive and attack until that threat is destroyed, you are 
never going to be batting 100 percent against the threat coming 
toward you. BMD [ballistic missile defense], land-based and 
sea-based, is awfully important, very important. And it is 
pretty well funded.
    But the sea-based threat to that, getting back to the 
Secretary's commentary on antisubmarine warfare, we need to 
improve that because the Chinese are developing a significant 
submarine-based threat and the Russians are, as I mentioned in 
my opening remarks, deploying in ways that they have not done 
since the Cold War.
    That is why the Navy is looking at basing antisubmarine 
warfare capabilities back in Keflavik, Iceland. It is not 
because we enjoy cold weather. It is because that is where the 
Russians operate. And we need to work with our allies to go 
after that threat both offensively and defensively. So 
ballistic missile defense, I am in. I am all in.
    Ms. Gabbard. Thank you.
    Mr. Lehman. The ballistic missile defense based on the 
Aegis has a long history, and while I will not indulge my 
tendency in my anecdotage to tell you too much about it, one of 
the first battles as a new kid working for Henry Kissinger that 
I was engaged in, was the attempt by the Arms Control and 
Disarmament Agency to block the Aegis cruiser because they 
alleged--and frankly, they were right--the Aegis missile 
system, the phased-array radar, did violate the ABM [anti-
ballistic missile] agreement in SALT I [Strategic Arms 
Limitations Talks/Treaty]. It had the kind of power aperture 
that clearly was capable of ballistic missile defense. And of 
course, now it is. It is now part of our ballistic missile 
defense. That was a long, long time ago, well before you were 
born. And here we are.
    Now, the Navy got the mission, and now just as, you know, 
the Navy fought a huge battle in 1947 in this room to get a 
role in the nuclear deterrence and then after some severe 
battles, they won that role and they were in the SIOP, the 
single integrated operational plan. But then they suddenly 
found, hey, wait, being in the SIOP with the nukes meant that 
they were tied to launch points and no longer could the fleet 
move. It had to stay where it is. And the Aegis ballistic 
missile defense ships are finding the same thing.
    So while they count in the 300-ship Navy or the 272-ship 
Navy, they are of limited use in a conventional war because 
then you will be in DEFCON 3 [Defense Readiness Condition], or 
wherever, and you are going to be tied to a specific point.
    So I am not arguing for canceling the ABM capability in the 
Aegis cruiser, but it severely limits the strategic 
capability--I mean, the conventional capabilities of deterrence 
in the fleet.
    So I believe we need ballistic missile defense. We 
shouldn't try to delude ourselves. You know, again, the reality 
is that our pursuit of Star Wars helped to end the Cold War 
because the Russians believed that we could do it because we 
showed them we could do so much else. And it was really so far 
out in terms of cost and capability that it was not an option 
any of us were really comfortable with putting all of the money 
that would be necessary to get it going.
    But it sure paid off because the Russians, it helped to 
paint a picture that gave Gorbachev what he needed between the 
600-ship Navy kicking him around in the annual exercises and 
the idea of Star Wars, which his military were telling him 
``oh, yeah, it is going to work. So we have got to have our 
own. You have got to give us three times the budget.'' That is 
what ended the Cold War.
    So we do need to stay up on the capability, the technology. 
We need to deploy it particularly in the land, against Iranian 
threats and Russian threats now against their near abroad, and 
North Koreans, who God knows what they will do. So we should 
have that capability. But let's not go overboard and tie every 
Aegis ship to a launch point where they are no longer part of 
the Navy.
    Mr. Forbes. The gentlelady's time has expired. The 
gentlelady from Missouri, Mrs. Hartzler, is recognized for 5 
minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman, and thank you both 
for your service. My goodness, all the way back to the 
Revolutionary War. I mean----
    Mr. Lehman. No, not me.
    Mrs. Hartzler. You don't look that old. But I mean, your 
family history of serving in the Navy is just admirable. And 
Admiral, certainly, you have so much to be proud of too. I 
can't imagine your whole family involved in the Navy and one 
son still serving in another capacity. But thank you for your 
service.
    I wanted to talk a little bit about unmanned capabilities 
as it relates to the aircraft carriers. And so can you speak to 
the value of unmanned aviation to an aircraft carrier air wing?
    Mr. Lehman. Well, let me start. But the fact is that----
    Mrs. Hartzler. I don't think your microphone is on.
    Mr. Lehman. Oh, I am sorry. If I left it on all the time, 
you would hear our side comments, which you don't want to do.
    There is an absolutely important role for unmanned aircraft 
as part of the carrier air wing. But don't think it is going to 
solve a lot of manpower or cost problems. It takes more people 
to operate in a squadron, to maintain and operate a squadron of 
UAVs [unmanned aerial vehicles] today with today's technology 
than it does manned aircraft.
    I am a strong supporter of UCAS [Unmanned Combat Air 
System]. I think it should have a strike capability, but we 
shouldn't try to make it all things to all possible missions. 
Because you just--that is what we tried to do with the F-35 and 
look what happened to that. And so what we should do is move in 
a measured way. To me, you know, as a former carrier aviator, 
the most important thing for me right now, if I were in that 
planning phase, would be an unmanned tanker as part of the 
carrier air wing because our strike aircraft today are less 
capable in terms of range and payload than they were 30 years 
ago. So we need to get more range and more payload and that 
means you need more tankering.
    And the reconnaissance intelligence gathering and so forth, 
these are important functions that UCAS can do. Strike versions 
as well. What we shouldn't do is try to cram all these 
different missions into one airframe and one system, and it 
should be done in a measured way.
    Stealth, I am very much a skeptic on stealth. It has its 
role in certain places, but the price and the compromise is in 
other capabilities that you have to make to be truly stealthy 
are not worth it in my judgment, particularly on a carrier. I 
don't think that even the F-35 will get more than one truly 
stealthy flight.
    Because anybody that has ever spent time, as you all have, 
on an aircraft carrier and sees what goes on down on the deck 
and pitching seas and salt spray, and particularly towards the 
end of a deployment, the grease all over the deck and airplanes 
starting to slide, and people running with chains and knocking 
dents into the--nobody who has spent time operationally on a 
carrier believes that stealth can survive on a ship.
    As it is, the Air Force's stealth aircraft have to go into 
a clean room after every flight to get their full stealth 
restored. So it doesn't have to be stealthy. It is nice to have 
perhaps for some missions, particularly ISR [intelligence, 
surveillance, and reconnaissance] missions, but we have got to 
be careful what we are going to give up to get that stealth, 
particularly in a strike version. It has got a role. There are 
going to be more of them in the future, but to try to rush into 
it and put too many requirements on it would be a big mistake.
    Mrs. Hartzler. I represent Whiteman Air Force Base that has 
B-2 bombers, stealth bombers, so a little bit familiar with 
that. I understand what you are saying.
    Admiral, do you have anything to add in 26 seconds?
    Admiral Natter. Yes. Thank you. I certainly agree with the 
Secretary on this. The real value of having unmanned aircraft 
is to augment the air wing and the capabilities of our F-18s 
and F-35s.
    I see, in addition to an air refueler, which makes a lot of 
sense to me, the ability to put another ISR node up in the air 
so that you have not only the F-35 and the E-2 working through 
NIFC-CA [Naval Integrated Fire Control-Counter Air] to the 
Aegis cruisers and destroyers, you also have an unmanned node 
up there so that you can spread your ability to attack and 
defend the battle group and to attack either land targets or 
other naval targets.
    As the Secretary of Defense has testified in open hearing, 
the Navy has already conducted a significant range attack on 
the surface target as well as an air target, utilizing this. 
And so unmanned aircraft would fit very well into that 
approach, but I don't foresee in my lifetime an unmanned air 
wing operating from a carrier. I just don't see that happening.
    Mr. Lehman. Well, I will believe in it when I get on and 
fly in the first unmanned United airliner.
    Mr. Forbes. The gentlelady's time has expired.
    The gentlelady from Florida, Ms. Graham, is recognized for 
5 minutes.
    Ms. Graham. Thank you, Mr. Chairman.
    Thank you so much, gentlemen. I wish I would have been here 
at the beginning. I found this to be so informative. Really 
appreciate all you bring to this discussion.
    You mentioned, Mr. Secretary, the Littoral Combat Ship. I 
am interested in talking a little bit more about that. Since I 
have sat down, you have said that the frigate, you don't want 
to have the LCS and the different roles it can play, you think 
the frigate would be a better ship for some purposes. You have 
also said that a ship can't be all things for all 
possibilities. If I have quoted you wrong, please correct me.
    How do you see the LCS, its current role, what it is 
expected to do? Can it meet those challenges? And, Admiral, you 
as well. I think the current budget from the President has 
decreased the number of LCSes that we are going to be 
purchasing. Do we need to maintain the number or even increase 
them? And just how do you see this fitting into our Navy 
operations today? Thank you.
    Mr. Lehman. Well, first of all, I have always been a fan of 
the LCSes. They do have a role in littoral combat. The modular 
idea was one of these ideas that, you know, it is a great idea 
but actually implementing it is going to cost more than it was 
worth.
    But frankly, in their current versions, I think we have 
enough of them with what the administration has been asking 
for. But we have built up in two shipyards a tremendous 
capability. I mean, I have owned some shipyards. And building a 
workforce that really knows what it is doing and knows how to 
take care of supply chain management and learning curve 
production, it takes years. And we have built that kind of 
capability in Marinette, and we have built it in Mobile. And so 
whatever we do next, we should do everything possible to keep 
that organic capability alive by participating in shipbuilding.
    Right now, building the same Littoral Combat Ship, more of 
them than has been asked for, I don't see the need for them. 
Trying to make them, either of those two hull forms, which 
each, in their way, is a tremendous really technological 
achievement, but trying to make them into a frigate--a frigate 
has to be that multi-role ship. It has to have, first and 
foremost, antisubmarine warfare capability. It has got to be 
able to tow a passive tail, so for passive sonar. It has got to 
have an active sonar. It has got to be able to defend itself 
against cruise missiles. It has got to be able to attack other 
ships and shore.
    The Perry class, which we have now retired the last one of 
them, we called them FFG-7s, they had a little bit of 
capability in each area, a lot of capability in the 
antisubmarine area. But they were great ships. We were able to 
compete them where there were three yards building them. The 
price came down and down and down because we had that annual 
competition.
    And they could deploy--they had ranges of over 8,000 miles. 
So they could deploy with any--people criticized them because 
they only had a top speed of 28 knots, but they actually could 
go faster than that. They could keep up with the carriers 98 
percent of the time and they were great ships. And they were 
very cost effective.
    You cannot take an LCS of either design and get any--you 
know, they called the F-18--the Super Hornet F-18 was just 
supposed to be--it was really to get through you guys. It was 
just an F-18. It was just a Hornet, a little bigger, it would 
go longer, faster, et cetera.
    It was totally a different airplane. It had no commonality. 
The engines were different. The wing was different. The radar 
was different. It was a new airplane. And that is what they are 
going to try to do with the LCS. Call it an LCS frigate, but if 
it is going to do the frigate job, it will be an entirely new 
ship, and yet it will have to make compromises to retain some 
commonality at all with the LCS and you are going to get the 
worst of both worlds out of it, I guarantee it.
    What we need to do--even if we went back to the FFG-7 with 
modern technology, we have such vulnerability. Admiral Natter 
used to deploy his battle groups with 28 ships. Today we 
average six ships, which leave these huge gaps in your layers 
of defense particularly against submarines, and particularly 
against diesel submarines, let alone attack submarines--I mean 
nuclear submarines.
    So I think we need to be realistic about it. And we ought 
to come up with a frigate design that can be built in these 
same yards or at least part of them, if not all of them, and 
that can be competed on a fixed-price base. Don't let the vast 
bureaucracy--you know, I owned Hawaii Superferry. I am sorry 
that Ms. Gabbard is not here. She hopefully rode it at one 
point. We built that right next--150 feet from the first 
aluminum LCS, roughly the same size ship, both built to ABS, 
American Bureau of Shipping, quality standards.
    In the lifetime of our ship, we had two change orders that 
we found, sand eroded the intakes. There was sort of good 
commonsense changes that did not require any big design 
changes. One hundred fifty feet next to us, the first LCS, the 
aluminum LCS, which I think was an LCS 2, they averaged 75 
change orders a week. Seventy-five change orders a week!
    I had one guy down there as my, what my equivalent would be 
SUPSHIPs [Supervisor of Shipbuilding] to supervise and oversee 
the shipyards. It was a great shipyard. The Navy had to build 
their own building to house all their SUPSHIPs people. And as a 
result, ours came in on budget, because we had a fixed-price 
budget. So we were on budget, on time, two change orders.
    Next door, they came in three times the price, the contract 
price, and a year and a half or 2 years late. And when you try 
to look at what the change orders did, they were all, you know, 
move the ashtray from here to there, some Beltway bandit had 
submitted a study that showed if you go from 38 knots top speed 
to 39 knots top speed that, therefore, there were instances 
where this could make a big difference and so that change order 
came down. Nobody knew who approved it, where it came from. It 
just got into the system from one of the 40 JROC [Joint 
Requirements Oversight Council] subcommittees.
    So whatever we do here--and this is really--a lot of good 
ideas are coming out of this committee. We have got to do it 
along with fixing and carrying out the reforms that you put 
into the defense bill this year, because if you just pour that 
money into the current dysfunctional system, it is wasting the 
money.
    Mr. Forbes. Gentlemen, you have been very patient with us. 
I have just a few more questions I would like to ask for the 
record.
    Admiral, you have spent a fair amount of time with the 7th 
Fleet in the Asia-Pacific area. Can you just give us a little 
capsule version of your experience there? And then if you could 
also tell us, based upon that experience, as you see our force 
structure there now, with also what you see with other forces 
there, how would you assess our capabilities there and your 
worries, if any?
    Admiral Natter. Yes, sir.
    As we have discussed prior to that question, the Navy and 
the fleet, when I was commander of the 7th Fleet, had roughly 
the same number of ships that are forward deployed there now, 
today. But we did not have a Chinese Navy that was worthy of 
being called a navy. The Russian Navy was back in port trying 
to keep their ships from rusting to the bottom. I visited 
Vladivostok. Their ships were a disgrace.
    The reality, though, is times have changed. We have a 
Russian Navy that is deploying, as I mentioned before, to Cold 
War levels. We have North Korea that has developed a nuclear 
weapon and the means to deliver it, in the process of means to 
deliver it. And we certainly have the Chinese Navy that is much 
more aggressive, much more capable, technologically and with 
force levels, and yet we still have roughly the same size as 
the 7th Fleet that we had when I was there.
    The idea, as Secretary Lehman has mentioned here today, 
that we are going to say we are not going to stand for them 
unilaterally claiming 645,000 square miles of ocean resources, 
and yet we don't have the means to put up and to confront them 
in the early stages of what they are doing. Because if we wait, 
and we don't get with our allies and say this is not something 
that we are going to allow to happen unilaterally, then it is 
going to become impossible further down the road.
    And if, as Secretary Lehman has mentioned, that we fall 
into a confrontation with them, and we have insufficient forces 
there to act in a responsible way as a capable Navy, then you 
are going to have American citizens who are serving our country 
die. And I would suggest that the government is responsible for 
that, and I would again applaud this committee for what you are 
doing to raise that as an important issue.
    Because I had it relatively easy as 7th Fleet commander; my 
successor today does not. He has a very, very tough problem to 
confront.
    Mr. Forbes. Would you be concerned if you were the 7th 
Fleet commander today?
    Admiral Natter. I think it goes without saying, yes, sir. I 
would be very concerned about the capability of my forces. 
Individually, they are great.
    And let me just say, we have been talking about force 
levels. The men and women serving in your military today are 
the best citizens this country could ever ask for. We just need 
to give them the tools to prevail if we ask them to go do 
something. That is what I am fearful of today.
    Mr. Forbes. There is a myth that--or at least I think it is 
a myth, I would like to have both of your opinions on it--that 
we are not going to need to increase the number of ships, in 
fact, the size of our force structure today because all of our 
future battles are going to be done with special forces and 
with unmanned platforms.
    Mr. Secretary, how would you respond to that argument? And 
then, Admiral, if you would give us your thoughts.
    Mr. Lehman. Well, of course, the Navy is a very visual 
service, and that is the advantage. Through the Cold War our 
fleet was visible throughout places like Singapore, and later 
Vietnam, and Malaysia, and Hong Kong, and Korea. Everybody knew 
we were there, and everybody knew these ships had real 
capability. And nobody doubted the ability of America to 
command the seas--that is to protect our allies and to keep 
free trade traveling and keep freedom of the seas.
    Today, I meet very few people in my travels who believe 
that is the case, even though they are totally pro-American. 
The fact that through most of the last 10 years we have had no 
combatants in the Mediterranean, for instance, when we normally 
had 40 or 50 combatants in the 6th Fleet during the Cold War.
    Now, I mean, I travel to places around the Mediterranean 
and they say, gee, we haven't had a liberty call here for 20 
years. We haven't had a Navy ship. Don't you have a Navy 
anymore? Because they don't see it because we aren't there. So 
who knows what the next war is going to be tripped by, but 
there will be conflicts. There have been conflicts.
    Nobody foresaw, before 9/11--Presidents of both parties 
were saying that terrorism, yeah, it is a problem, but it is 
one that--you know, every President that I can recall, 
including, I must say, my sainted boss, President Reagan, their 
first response to every terrorist act was we will bring these 
people to justice. Well, who gives a damn about bringing these 
people to justice? You have got to prevent it from happening. 
And today, more and more of our enemies do not see us bringing 
anybody to justice and still let us be able to deter and to 
stop and to enforce freedom of the seas and so forth.
    Cyber is very important, and we are becoming more and more 
vulnerable to it. I don't know how many dozens of millions of 
lines of code are in the F-35, for instance. Many of our 
systems, just as our electrical grid, we think we have 
protected, but the thousands of hackers that are all over the 
world, that is just red meat to them. Oh, you think you have 
got a hack-proof system, and we find out that it is not hack 
proof.
    So who knows where it is going to come from, but history 
has told us that you say we cannot predict where and how the 
next war is going to break out. So you better be prepared for 
other contingencies than just the favorite ones you would hope 
would be the problem.
    Mr. Forbes. Admiral.
    Admiral Natter. I am glad you have asked this question, Mr. 
Chairman. I served with the Naval Special Warfare in Vietnam, 
worked with two SEAL [Sea, Air, and Land teams] platoons. I 
have very good friends in Ranger battalions and also Ranger 
Regiment and also in Naval Special Warfare, friends and 
relatives today. They are the very first ones who will tell you 
that they cannot be effective without the support and 
interaction of conventional forces.
    Let me give you an example: The SS Alabama, those SEALs who 
shot and killed the pirates who took the captain of the 
Alabama, how did they get on station? Air Force aircraft. From 
what platforms were they enabled to take those pirates down? A 
United States Navy ship supported by other ships and aircraft. 
Those SEALs did not just come out of the water and emerge and 
start shooting.
    Without conventional forces, without air support for our 
Rangers, and SEALs, and other special operators in Iraq and 
around the world, there is no way they can be as effective as 
they are today. There is a good place. They are very valuable 
to this Nation. I respect the heck out of them. But I agree 
with them; they would not be nearly as effective without strong 
conventional forces around the world.
    Mr. Lehman. Yeah. Even the delivery of the Special Forces, 
for instance, in Desert Storm came from the Kitty Hawk. I mean, 
the carriers are not just air wing carriers. I mean, when there 
was all the uproar during the Clinton administration in Haiti, 
it was a carrier that took the two airborne divisions down to 
Haiti and delivered them with their helicopters.
    The Navy is able to project power and to provide support 
anywhere in the world. Anywhere in the world. We have lost 
bases, 95 percent of the bases we had during the Cold War in 
Europe and in Asia. We don't have land bases. When there is a 
crisis that can be solved and put down before it escalates into 
a conflagration, it is the Navy that can go there.
    Yes, Air Force is an essential part of that as well, but 95 
percent of the tonnage for any military contingency has to 
travel by sea. And if that is the case, whether it is a 
prepositioned ship in Diego Garcia, or a fast deployment ship 
or whatever, it has got to be protected by total air 
superiority and submarine superiority underneath.
    So the idea is so typical of Washington armchair think 
tanks that see this great new wave. That is why a mess was 
created in our Ford-class carrier, because the think tanks were 
saying, oh, the Navy is so stodgy. They never know what is 
happening in technology. We have to have a revolution in 
military warfare. We are going to put 12 new technologies into 
the aircraft carrier, so there you have a hull. It is a Nimitz 
hull. And it has got seven technologies today that we still 
don't know how to make work.
    Mr. Forbes. Last two questions because I know Mr. Courtney 
needs to go as well.
    Our carriers. There have been some arguments that we don't 
need carriers today. We need to maybe reduce the number we 
have. And there is even a proposal to take one of our carrier 
air wings out in the budget this year.
    Can you just tell us how important you think it is that we 
maintain at least 11 carriers and 10 air wings, or do you think 
we can reduce them down? Admiral.
    Admiral Natter. I would love to take that one on, sir. The 
assumption that we can do away with an air wing assumes that we 
are going to just be operating in peacetime. What happens when 
those aircraft go down through hostile fire? We will suffer 
casualties in warfare. There will be an opposition who wants to 
kill us as badly as we want to kill them, and they will be 
successful to a point. So the idea that we are operating on 
zero margin is crazy.
    With respect to the number of carriers, we have been 
operating 10 for really--and will be for about 10 years until 
Ford comes online and is able to deploy. These ships, as the 
Secretary has said, are deploying for 9 months now. It is 
crazy. And we have adjusted the rotation, the Fleet Response 
Plan to accommodate really longer deployments. What does that 
do? It builds up deferred maintenance on the part of these 
ships and aircraft.
    The F-18s, they can't get them through depot quickly enough 
because when they have opened them up they have found problems 
that were more critical than they expected, primarily because 
of the high flight hours on the F-18s. So we need to be able to 
have sufficient force structure for what the national command 
authority is asking our ships, our squadrons, and our people to 
do.
    Mr. Forbes. Good. Last question for you is this: I think 
both of you basically concurred we need about 350 ships. Is 
that fair? We have both witnesses are nodding.
    Mr. Lehman. Yes.
    Mr. Forbes. There was a question that we were asked about 
what the makeup of those ships would be. We can't get there 
overnight. But as we start allocating our dollars, where would 
you suggest we start, as we go from where we are today to 
perhaps one day getting back to 350. What is the most important 
investments we need to make over the next 5-plus years?
    Mr. Lehman. Well, I would say the biggest lack is 
antisubmarine capability, and the frigate is perhaps the most 
glaring deficiency. The less sexy things--you know, everybody 
likes to debate how many of this and how many of that, 
airplanes and ships, but the things like the towed arrays, and 
the former SOSUS [Sound Surveillance System] arrays, and the 
less sexy things that are fundamentally important to having an 
environment where you do command the seas. Those are the ones 
that get left out when you get into shooting wars, in the 
Middle East and elsewhere, and you have insufficient budgets, 
but you are told you have got to keep this many ships and hit 
these many deployments.
    All of that unsexy stuff disappears from the budgets. The 
committees don't concentrate on them, because there is only so 
many things that a committee like yours can really take on. And 
we are leaving ourselves today in a very dangerous position 
vis-a-vis the submarines, not just the Chinese, Russian nuclear 
submarines, but the huge proliferation of good, quiet, diesel 
electric subs.
    And the cruise missile threat and so much is said by people 
that say, oh, get rid of the aircraft carriers, they are just 
targets. We have dealt with the problem of ballistic missile 
attacks on the submarines for as long as I have been involved 
with the Navy. The Russians had them. The technology has moved 
on. But our defensive technology has moved on.
    So, yes, we are going to get hit. Any of the surface ships 
are going to get hit by missiles, by conventional missiles. But 
that doesn't mean that it is going to take them out of action 
or prevent the defeat of our potential enemies. So if there is 
one issue I would urge you to really focus on, it is our 
vulnerability to enemy submarines of both conventional and 
nuclear.
    Mr. Forbes. Admiral.
    Admiral Natter. To me, the question really begs a 
commonsense response, an answer. And that is, what is the best 
way to achieve roughly a 350-ship Navy, because I think in 
gross numbers that is what the requirement is, and do it in a 
way where we are not wasting money. Industry has got to be 
involved in this. We don't want to say, all right, start 
building five submarines a year, for example. That is not going 
to happen without wasting a lot of money.
    What I would suggest is that we establish as an overall 
goal 350. You say we are going to up it to three submarines a 
year, three DDGs [guided missile destroyers] a year. We are 
going to shorten the timeline between the start of a new 
carrier from 5 years to 4 years. That will eventually drive it 
up to 12 carriers. And ASW [antisubmarine warfare] ships and 
aircraft, the P-8 is a good start. We need surface ships that 
can conduct competent ASW.
    And we also need to build amphibious lift. The Marines have 
a steady drumbeat, as you all Members of Congress know. They 
need the lift for their people. The way to do that is in a 
gradual industry-sensitive way that gets us to where we want to 
go, gets us on the right track, and doesn't burn money in the 
process.
    Mr. Lehman. Yeah, I would just like to add one fillip to 
the admiral. I agree with him completely. But in the 1980s, we 
froze designs, which enabled contractors to bid fixed price. 
You can't bid fixed price if there is 75 change orders a week. 
It is impossible. You have got to go to cost-plus. That is why 
everything today in procurement is cost-plus even when they say 
it is fixed price. It is really every time a change order comes 
in that allows them to escape the strictures of the fixed-price 
contract.
    So unless the Navy does its part in preventing change 
orders, then you can't expect contractors to be held to fixed-
price competitive contracts. The three and three worked 
brilliantly during the 1980s. We had three subs. The low-priced 
bidder for two got the two, and the high-price got the one. And 
the same with--that is how we built all the Arleigh Burke 
destroyers, how we built all the Tico [Ticonderoga]-class Aegis 
cruisers, all the submarines. We competed everything every 
year. And that discipline got better ideas, it got innovations. 
Because when you are looking at the guy running next to you 
trying to take your extra ship, then things happen. That is how 
we were able to return $8 billion to the Treasury, in effect. 
So we have got to get back to that.
    But you can't ask the contractors to take those kinds of 
risks until you get control of the constant change and the 
bureaucratic method of running a business, which average, as 
you know, in the ACAT I and II, we average 22.5 years to go 
from the requirement to the first fielding. That is insane. It 
took 4 years for Polaris and Minuteman, 4 years to do the same 
thing. But then, of course, the defense bureaucracy was about 
one-tenth the size it is now.
    Mr. Forbes. Gentlemen, we thank you.
    Mr. Courtney, did you have anything else?
    Thank you both again for your service to our country. Thank 
you for laying this foundation for us, which we hope will help 
us build upon to rebuild the number of ships that we need in 
our Navy. If either of you have any last comments that you 
would like to offer before we go?
    Mr. Lehman. Keep up the good work.
    Mr. Forbes. Okay.
    Admiral Natter. Amen to that, sir.
    And I would just like to emphasize again, our men and women 
deserve your support, and I want to thank you and the fellow 
members of your committee for that support. Good luck with the 
rest of the Hill.
    Mr. Forbes. Thank you. And with that, we are adjourned.
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 13, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 13, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   

                                [all]
</pre></body></html>
